         EARLY-DEFAULTED
GULF COAST HURRICANE DISASTER LOANS 




            Report Number: 08-19 

        Date Issued: September 12, 2008 





                Prepared by the
          Office of Inspector General
      U. S. Small Business Administration
           U.S. Small Business Administration
           Office of Inspector General
                                                Memorandum
    To:    Herbert L. Mitchell, Associate Administrator for         Date:   September 12, 2008
           Office of Disaster Assistance

           Grady Hedgespeth, Director Office of Financial 

           Assistance

           /s/ Original Signed
  From:    Debra S. Ritt 

           Assistant Inspector General for Auditing 

Subject:   Audit of Early-Defaulted Gulf Coast Hurricane Disaster Loans, 

           Report No. 08-19 


           This is the final report on our audit of Early-Defaulted Gulf Coast Hurricane
           Disaster Loans. We initiated the audit in response to the increasing number of
           defaulted Gulf Coast disaster loans processed by the Small Business
           Administration (SBA). The objectives of the audit were to determine whether
           Gulf Coast Hurricane disaster loans that failed within 18 months of the first due
           loan payment: (1) received adequate screening and credit evaluation during the
           application process; and (2) were serviced in accordance with loan provisions and
           regulations.

           The audit objectives were accomplished through a review of 117 loan files, which
           were statistically sampled from 4,985 loans that were at least 90 days delinquent
           or charged-off as of September 30, 2007. To determine whether the loans
           received adequate screening and credit evaluation during the loan application
           process, we reviewed the Office of Disaster Assistance’s (ODA) repayment
           calculations and credit bureau reports for each applicant. To determine whether
           loans were adequately serviced, we compared loan collection actions taken within
           the first 60 days of delinquency to Office of Financial Assistance (OFA) servicing
           standards. We conducted site visits and interviews at the Fort Worth Disaster
           Assistance Processing and Disbursement Center (PDC), and the El Paso and
           Birmingham Loan Servicing Centers. We also interviewed ODA and OFA
           program officials and staff at the Buffalo Customer Service Center, and consulted
           with representatives from SBA’s Office of the Chief Information Officer.
                                                                                                       2


BACKGROUND

SBA provides disaster loans to help homeowners, renters, businesses and non-
profit organizations return to pre-disaster condition. As of July 3, 2008, SBA had
disbursed 119,656 loans totaling approximately $6.5 billion to victims of the 2005
Gulf Coast hurricanes to help homeowners, renters, businesses and nonprofit
organizations return to pre-disaster conditions. Of these loans, 117,633, or about
98 percent, have been fully disbursed.

SBA’s Associate Administrator for Disaster Assistance plans, directs, and
administers the disaster loan program. Loan approvals and disbursements are
processed by the PDC, which is under the responsibility of ODA. SBA’s
regulations and operating procedures require that applicants have satisfactory
credit and repayment ability in order to qualify for disaster loans.1 However, a
previous OIG audit determined that an estimated $1.5 billion in loans approved
under the Expedited Disaster Loan Pilot Program were awarded to borrowers who
lacked repayment ability.2

Once a loan has been fully disbursed, the PDC generally transfers the loan file to
either the El Paso or Birmingham Loan Servicing Center, according to the
borrower’s geographic location. Both of the servicing centers are operated by
OFA. Loan files that are missing collateral documents are kept at the PDC until
all of the documents are obtained. In these cases, servicing actions must be
performed by the PDC until the loan is transferred to a servicing center. We
previously reported that 25,352 fully disbursed loans had not been transferred to
the servicing centers as of February 8, 2008, and remained with the PDC for
servicing.3

RESULTS IN BRIEF

Our audit determined that improper loan origination and/or servicing may have
contributed to early loan defaults because all but 4 of the 117 loans reviewed were
either improperly originated and/or inadequately serviced. Approximately 63
percent of the loans reviewed were approved although the applicants lacked
repayment ability or were not creditworthy, and 79 percent were inadequately
serviced after becoming delinquent. Projecting our sample results to the universe
of 4,985 early defaulted loans, we estimate that approximately 4,815 loans,
totaling $98.4 million, defaulted early due to loan origination or servicing issues.


1
    13 CFR 123 and SOP 50 30, Disaster Assistance Program. 

2
    OIG Report No. 07-34, Audit of the Quality of Loans Processed Under the Expedited Disaster Loan

    Program, September 28, 2007.
3
    OIG Report No. 08-17, Disaster Loan File Transfer and Servicing Delays, July 18, 2008.
                                                                                    3


The majority of loans that were not properly evaluated for repayment ability were
processed under expedited procedures, which did not include a repayment
analysis. For those approved under standard processing procedures, the PDC used
incorrect income and debt figures. Loans were approved to applicants with
unsatisfactory credit because loan officers inadequately evaluated derogatory
credit issues. In addition, the majority of the loans involving credit issues received
system-generated pre-processing decline recommendations that were overturned
by supervisory loan officers without justification. After the decline
recommendations were overturned, the loan applications were forwarded to loan
processing and subsequently approved without adequately addressing the
derogatory credit issues. PDC managers stated that the unusually high volume of
loan applications, coupled with inexperienced staff processing the applications,
contributed to the inappropriate approval decisions.

The loans that were not adequately serviced were either assigned to the two
disaster loan servicing centers, the PDC, or a combination of the centers. The two
loan servicing centers, which were required to follow early servicing guidelines,
began servicing loans after 11 days of delinquency. However, the centers did not
make all of the required collection calls or distribute all collection letters. In
contrast to the loan servicing centers, the PDC did not service its loans until 31
days or more after the loans became delinquent. It also did not make contact with
many of the borrowers whose loans it was responsible for servicing. Finally, some
loans were transferred to multiple centers during the first 60 days of loan
delinquency, which disrupted the Agency’s collection efforts.

To ensure that applicant repayment ability and creditworthiness are adequately
evaluated, we recommended that ODA’s training program re-emphasize that
supervisory loan officers must thoroughly review applicant repayment ability to
ensure accuracy and must address all derogatory credit issues before loan
approval. We did not make recommendations about the servicing of loans as the
Agency addressed the deficiencies we identified in its servicing activities during
the audit. Specifically, OFA enhanced the Birmingham center’s automated
capability to call borrowers and transmit collection letters, and ODA agreed to
apply the servicing centers’ collection guidelines to the PDC operations. After
these corrective actions have been fully implemented, we plan to conduct follow-
up work to determine whether they have been successful in resolving the problems
identified in the audit.
                                                                                           4


 RESULTS

 ODA Approved Loans without Properly Evaluating Applicant Repayment
 Ability and Creditworthiness

 The audit disclosed that 74, or approximately 63 percent, of the 117 loans
 reviewed did not receive adequate screening and credit evaluation during
 application processing. These loans were approved for borrowers who lacked
 repayment ability, creditworthiness, or both. Consequently, these loans defaulted
 within 18 months of the first payment due date. As shown in Table 1 below, 32
 percent of the approved borrowers lacked repayment ability, 20 percent were not
 creditworthy, and 11 percent lacked both repayment ability and a satisfactory
 credit history. Projecting our sample results to the universe of 4,985 early-
 defaulted loans, we estimate that approximately 3,182 loans, totaling $69 million,
 were made to applicants who did not meet SBA’s repayment and credit
 requirements.

                                            Table 1. 

                                Deficiencies in Loan Approvals 

                                No             Lack of        Repayment &
   Loan
                Audit      Repayment       Creditworthiness      Credit          Total
  Process
               Sample      Ability Only          Only         Deficiencies    Approvals
                 No.       No.      %        No.       %       No.      %    No.       %
 Expedited        46       26       57          3      7       4       9     33      72
  Standard        71       13       18          20    28       8      11     41      58
   Totals        117       39       33          23    20       12     10     74      63

Source: OIG Analysis of Sample Loans Reviewed

 The majority of loans made to individuals who lacked repayment ability were
 approved under expedited procedures, which did not include a repayment analysis.
 For example, under expedited procedures, the PDC approved a $31,600 loan to a
 borrower who had a yearly pre-Katrina income of $3,370. This income was
 insufficient to cover the applicant’s monthly rent and credit card payment, much
 less an additional loan payment. The remaining loans were approved under
 standard processing procedures, which included an analysis of the applicants’
 repayment ability. However, the PDC did not always use correct income and debt
 figures in its calculations, and supervisory loan officers reviewing the repayment
 analyses did not detect the calculation errors.

 For example, the PDC’s repayment analysis of an applicant that was approved for
 a $79,000 loan overstated the applicant’s monthly income by $1,067 and
 understated his monthly debt by $657. This occurred because the loan officer
                                                                                   5


failed to reconcile wages reported on the loan application with the applicant’s pay
stub, and did not verify other income used in the repayment calculation.
Additionally, payments for an automobile loan, three deferred student loans, and a
retail charge account were omitted by the loan officer and were not detected by the
supervisory loan officer. Consequently, the PDC determined that this loan had a
debt-to-income ratio of 45 percent, when the actual ratio was 98 percent.

Loans were approved to applicants with unsatisfactory credit because loan officers
did not adequately assess applicant credit histories or address derogatory credit
issues, as required by SOP 50 30. These issues were so significant that the PDC
should have declined the loans. For example, the PDC approved a $37,200 loan to
a borrower who had a credit score of 591, two unpaid collection accounts totaling
$1,858, and two unpaid charged-off accounts totaling $502. In another example,
the PDC approved a $40,000 loan to a husband and wife who had credit scores of
576 and 530, respectively. Their credit reports showed 8 unpaid collection
accounts totaling $3,817 and three past due accounts totaling $1,012. In both
examples, loan officers did not adequately address the borrowers’ credit
deficiencies before approving their loans.

In addition, of the 35 loans shown in Table 1 as having credit issues (i.e., 23 with
only credit issues plus 12 with both credit and repayment issues), 26 received
system-generated pre-processing decline recommendations based on credit scores
below 580. However, the PDC overrode the pre-processing decline
recommendations, and forwarded the applications onto loan processing where the
credit issues should have been further evaluated. While flagged in pre-processing,
these credit issues were later accepted during loan processing, and the loans were
approved.

PDC management stated that the high volume of loan applications, coupled with
inexperienced staff hired to handle the surge in loan volume, contributed to
improper loan approval decisions. It also acknowledged that the PDC’s
justification for final loan approval was not adequately documented.
Consequently, loan officers involved in the final processing of applications will be
instructed to provide complete justifications in the future.

The Majority of Delinquent Loans Were Not Adequately Serviced

Of the 117 sample loans reviewed, 93, or 79 percent, were not adequately serviced
during the first 60 days of delinquency. Projecting our sample results to the
universe of 4,985 early-defaulted loans, we estimate that approximately 3,962
loans, totaling $77.9 million, were serviced inadequately. As shown in Table 2,
                                                                                      6


 64 of the 93 inadequately serviced loans were assigned to OFA’s loan servicing
centers in El Paso and Birmingham, 16 were assigned to the PDC, and the
remaining 13 were assigned to multiple centers.

                                      Table 2. 

                              Adequacy of Loan Servicing 

                                     By Center 

                               Number of           Adequate    Inadequate
                Center
                                Loans              Servicing    Servicing
          Birmingham
                                   32                   5          27
          Center
          El Paso Center           53                   16         37

              Subtotal             85                   21         64

          PDC                      16                   0          16

          Multiple Centers         16                   3          13

                Total              117                  24         93

        Source: OIG Analysis of Sample Loans Reviewed

The loan servicing centers are subject to the following time requirements for
servicing and liquidating past-due or delinquent disaster loans within the first 60
days of delinquency:

    •	 After 10-days past due - a collection letter is mailed to the borrower and
       weekly phone calls commence. While the phone calls are made by the
       appropriate servicing center, the letters are system-generated and mailed to
       borrowers by the Denver Finance Center once the loan becomes 10 days
       delinquent.

    •	 At 25-days past due - another collection letter is mailed to the borrower
       and weekly phone calls continue. The appropriate servicing center is
       responsible for making the phone calls and manually initiating the letters,
       which are printed and mailed to borrowers by the Denver Finance Center.

    •	 At 40-days past due – a third collection letter is mailed to the borrower and
       weekly phone calls continue. The appropriate servicing centers are
       responsible for making the phone calls and manually initiating the letters,
       which are printed and mailed by the Denver Finance Center.
                                                                                                        7


        •	 At 60-days past due - a pre-demand letter is mailed and weekly phone
           calls continue. The appropriate servicing center is responsible for making
           the phone calls and manually initiating the letters, which are printed and
           mailed to borrowers by the Denver Finance Center.

In assessing the adequacy of loan servicing, we determined that servicing was
adequate if at least 5 of the 8 required calls were made and at least 3 of the 4
required letters were sent. Also, at least one collection call must have been made
within 2 weeks of the first required call.

The extent of the servicing deficiencies varied based on where the loans were
assigned. For example, the Birmingham center made most of the required phone
contacts and initiated the letters, but did not timely execute the initial calls. Loans
assigned to the El Paso center were inconsistently serviced due to its reliance on
the Birmingham center to perform many of the required servicing actions. Of the
16 loans assigned to the PDC, almost half were never serviced, and the remainder
were not serviced until after they were 30-days past due. Finally, an additional 16
loans were transferred between the servicing centers, the PDC, or the Agency’s
liquidation center during the first 60 days of delinquency, which interfered with
the normal servicing cycle.

Servicing Deficiencies at the Loan Servicing Centers

The Birmingham center generally followed OFA’s guidelines in servicing its
assigned loans, with one exception. The center initiated most of the required
letters, and made most of the servicing calls, but did not make the initial calls
timely. Instead of starting the sequence of collection calls when loans were 11
days past due, the center generally did not begin making calls until the loans were
30 or more days delinquent. Once the initial call to the borrower was made, most
of the subsequent calls were timely. The Birmingham Center Director explained
that initial calls were untimely because the center’s incoming loan volume
exceeded its servicing capability. To increase its capacity to make calls, in June
2007, the center installed a new automated calling system that makes payment
requests to borrowers without involvement by the center’s staff.

In addition to servicing loans it was assigned, the Birmingham center was
responsible for making all required collections calls on loans assigned to the El
Paso center during the first 60 days of delinquency.4 However, due to its
excessive loan volume, the Birmingham center was unable to make all of the
collection calls for the loans assigned to El Paso. When the Birmingham center

4
    The Birmingham center’s responsibilities are outlined in the Agency’s Most Efficient Organization
    (MEO) contract.
                                                                                             8


did make the calls, the calls were not always timely. In addition, many of the
collection letters for loans assigned to El Paso were not sent due to confusion over
which center was responsible for initiating the collection letters for these loans.
Management at the El Paso center believed that the loan servicing assistant
making the collection calls was also responsible for initiating the collection letters.
Because the Birmingham center was responsible for making El Paso’s collection
calls, El Paso expected Birmingham to also initiate the collection letters. In
contrast, Birmingham management believed that both centers shared a combined
responsibility for these collection letters. According to the MEO contract, the loan
assistant making the phone calls was also responsible for initiating the mailing of
the letters. Therefore, because the Birmingham center was handling the calls for
the El Paso center, it should have also been responsible for the letters. In response
to the audit finding, OFA has automated the issuance of collection letters during
the first 59 days of loan delinquency. These letters will now be initiated without
interaction from the staff at either servicing center.

Servicing Deficiencies at the PDC

All 16 loans assigned to the PDC were serviced inadequately according to the
servicing center guidelines. While SOP 50 30 required the PDC to take collection
action on delinquent loans that had not been transferred to a servicing center, it did
not specify when collection letters and calls were required. The PDC’s practice
was to begin collection activities when loans were 31 days past due.
Consequently, the PDC’s practice differed from the servicing center guidelines,
which required collection activity as early as 11 days past due. This issue was
addressed in a prior OIG audit report, Disaster Loan File Transfers and Servicing
Delays.5 In response to that report, ODA agreed to apply the servicing guidelines
to its PDC operations.

Servicing Deficiencies on Loans Assigned to Multiple Centers

Finally, we identified 16 additional loans that had been inadequately serviced.
These loans had been transferred between the PDC, the loan servicing centers, and
the Agency’s liquidation center within the first 60 days of delinquency. The
transferring of these loans during their delinquency period disrupted normal
servicing activities, and may have led to the servicing deficiencies observed.

Actions Taken by the Agency

In response to the audit findings and discussions with servicing center
management during the course of the audit, OFA initiated steps to address the

5
    OIG Report No. 08-17, Disaster Loan File Transfer and Servicing Delays, July 18, 2008.
                                                                                     9


servicing issues. For example, capacity has been added to Birmingham’s
automated calling system so that it can now process all of the calls for loans
assigned to the El Paso center. Also, OFA has arranged for the Denver Finance
Center to automatically send all of the collection letters to delinquent borrowers
associated with loans assigned to El Paso and Birmingham. Additionally, ODA
has agreed to follow the same loan collection guidelines as those used by the loan
servicing centers, and is making similar arrangements with the Denver Finance
Center for the processing of their collection letters. Because management took
steps to address the servicing problems identified during the audit, no
recommendations were made. However, we plan to review the adequacy of the
automated dialing and mailing systems implemented by OFA in the future.

RECOMMENDATION

We recommend that the Associate Administrator for Disaster Assistance:

1. Develop an enhanced training program for all loan officers and supervisory
   loan officers that emphasizes how to properly evaluate applicant repayment
   ability and creditworthiness.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On August 4, 2008, we provided SBA with a draft of the report for comment. On
September 9, 2008, ODA submitted its formal response, which is contained in its
entirety in Appendix IV. ODA stated that it had previously launched a pilot
program to expedite the home loan process that based loan approval solely on a
credit scoring model. Under this program, applicants with high credit scores were
determined to have repayment ability for loans up to a specified limit. However,
after conducting an internal review of the loans processed under this pilot
program, ODA found that a test for available cash is also needed before approving
disaster loans. Therefore, ODA discontinued the pilot program.

ODA concurred with the report recommendation, stating that it had already
implemented new training, procedures, and aggressive quality assurance reviews
to ensure loans are approved to applicants who demonstrate repayment ability and
adequate credit history.

We commend ODA staff for taking prompt action during the audit to address
issues that the audit team brought to their attention, and believe ODA’s comments
are responsive to the report findings and recommendation.
                                                                                 10



We appreciate the courtesies and cooperation of the Office of Associate
Administrator for Disaster Assistance and the Office of Financial Assistance
during this audit. If you have any questions concerning this report, please call me
at (202) 205-[FOIA Ex. 2] or Pamela Steele-Nelson, Director, Disaster Assistance
Group, at (202) 205-[FOIA Ex. 2].
Appendix I. Scope and Methodology                                             11


The audit objectives were to determine whether defaulted Gulf Coast Hurricane
disaster loans that failed within 18 months of the first due loan payment: (1)
received adequate screening and credit evaluation during the loan application
process; and (2) were serviced in accordance with loan provisions and regulations.

To satisfy the first objective, we reviewed a sample of 117 loan files from a
universe of 4,985 that were at least 90 days delinquent or charged-off as of
September 30, 2007. The sample size allowed extrapolation to the universe of
loans with a 95 percent confidence level and a 15 percent precision rate. We
reviewed the loan files in the Disaster Credit Management System, including loan
applications, credit bureau reports, tax returns, and loan officers’ decline and
approval decisions. To test SBA’s computation of borrowers’ repayment ability,
re-calculated applicant repayment ability according to SBA policy. For each
sampled home loan, we followed the “Fixed Debt Method” as outlined in SOP 50-
30-5, Appendix 26. For each sampled business or economic injury loan, we
followed the “Cash Available to Service Additional Debt Method” outlined in
SOP 50-30-5, Appendices 19, 20, and 25. Additionally, we interviewed Fort
Worth Processing and Disbursement Center (PDC) officials and consulted with
representatives of SBA’s Office of the Chief Information Officer.

To satisfy the second objective, we reviewed the same sample of 117 loans for
completeness of collateral documents, compliance with requirements for follow-
up letters and calls to borrowers, and timeliness of loan file transfers to the
servicing centers. Additionally, we conducted site visits and interviews at the
PDC, El Paso Loan Servicing Center, and Birmingham Loan Servicing Center.
We also interviewed officials at SBA’s Office of Disaster Assistance, Office of
Financial Assistance, and the Buffalo Customer Service Center, and consulted
with SBA’s Office of the Chief Information Officer.

To test the reliability of the data in SBA’s Loan Accounting System, we verified
the accuracy of system data on approval dates, approved loan amounts, and
outstanding loan balances.

The audit was conducted between October 2007 and April 2008 in accordance
with Government Auditing Standards as prescribed by the Comptroller General of
the United States, and included such tests considered necessary to provide
reasonable assurance of detecting abuse or illegal acts.
Appendix II. Statistical Sampling Methodology                                  12



From the population universe of 4,985 approved loans, we randomly selected a
statistical sample of 117 to compute our estimate of population values. In
statistically sampling, the estimate of attributes in the population universe has a
measurable precision or sampling error. The precision is a measure of the
expected difference between the value found in the sample and the value of the
same characteristics that would have been found if a 100 percent review had been
completed using the same techniques.

We calculated the following population point estimates and the related lower and
upper limits for the selected attributes using the Windows RAT-STATS statistical
software program at a 90 percent confidence level. Projecting our sample results
to the universe of 4,985 early defaulted loans, we estimate that approximately
4,815 loans, totaling $98.4 million, defaulted early due to loan origination or
servicing issues. Accordingly, 74 of 117 loans, or 63 percent, may have been
approved to borrowers that lacked repayment ability, creditworthiness or both. In
addition, 93 of 117 loans, or 79 percent, may have been approved to borrowers
that lacked repayment ability, creditworthiness, or both, as depicted in the tables
below.

                  Loans Approved and Serviced Inappropriately
                                                         90 Percent Confidence
                Occurrence in        Population
                Sample of 117          Point
                   Loans              Estimate
                                                     Lower Limit       Upper Limit
  Number              113               4,815            4,606            4,925
Dollar value      $2,310,389         $98,438,369      $84,634,357     $112,242,381


                           Loans Approved Inappropriately
                                                         90 Percent Confidence
                Occurrence in        Population
                Sample of 117          Point
                   Loans              Estimate
                                                     Lower Limit       Upper Limit
  Number              74                3,182            2,821            3,543
Dollar value      $1,632,314         $69,489,254      $56,064,349      $82,914,159
Appendix II. Statistical Sampling Methodology                             13


                         Loans Serviced Inappropriately
               Occurrence in       Population         90 Percent Confidence
               Sample of 117         Point
                  Loans             Estimate      Lower Limit     Upper Limit

  Number            93               3,962            3,613           4,255

Dollar value    $1,828,154        $77,891,861      $65,373,477     $90,410,244
Appendix III. Exception List                                                                  14

Legend
R = Repayment only Exception, C = Credit only Exception, B = Both Repayment and Credit Exception

                                                 Current
 Sample       Loan          Approved                             Origination    Adequate
                                             Balance/Charge
  Loan       Number        Loan Amount                           Exception      Servicing
                                              d-off Amount


    1       FOIA Ex. 2           $15,200              $10,000         C            No
    2       FOIA Ex. 2           $10,000              $10,000         B            No
    3       FOIA Ex. 2           $14,900              $14,900         C            No
    4       FOIA Ex. 2           $19,000              $19,000         B            No
    5       FOIA Ex. 2           $31,500              $31,500         B            No
    6       FOIA Ex. 2            $8,200               $8,200         C            No
    7       FOIA Ex. 2           $20,900              $10,000         R            No
    8       FOIA Ex. 2           $42,800              $42,800         R            No
    9       FOIA Ex. 2           $21,900              $10,000                      No
   10       FOIA Ex. 2           $10,000              $10,000         R            No
   11       FOIA Ex. 2           $10,000               $9,976         R            No
   12       FOIA Ex. 2           $40,000              $40,000         C            No
   13       FOIA Ex. 2           $14,800              $14,800         R            No
   14       FOIA Ex. 2           $40,000              $40,000         C            No
   15       FOIA Ex. 2            $5,000               $4,732                      No
   16       FOIA Ex. 2           $35,000              $25,500         R            No
   17       FOIA Ex. 2            $2,000               $2,000         C            No
   18       FOIA Ex. 2           $18,000              $18,000         R            Yes
   19       FOIA Ex. 2           $21,700              $12,800         B            Yes
   20       FOIA Ex. 2           $29,900              $29,900         B            No
   21       FOIA Ex. 2           $29,200              $29,200         R            Yes
   22       FOIA Ex. 2           $11,800              $10,800         R            No
   23       FOIA Ex. 2          $100,000              $10,000                      No
   24       FOIA Ex. 2           $23,300              $23,300                      No
   25       FOIA Ex. 2           $34,500              $25,000                      No
   26       FOIA Ex. 2           $10,000              $10,000         R            No
   27       FOIA Ex. 2           $21,400              $21,400                      No
   28       FOIA Ex. 2           $90,500              $10,000                      No
   29       FOIA Ex. 2           $42,300              $10,000                      No
   30       FOIA Ex. 2           $79,000              $10,000         R            No
   31       FOIA Ex. 2           $28,700               $9,920         R            No
   32       FOIA Ex. 2           $26,200              $26,200                      No
   33       FOIA Ex. 2            $2,600               $2,600                      No
   34       FOIA Ex. 2           $31,600              $31,600         R            No
   35       FOIA Ex. 2          $117,200               $8,199                      No
   36       FOIA Ex. 2           $39,200               $1,280         R            No
   37       FOIA Ex. 2           $24,900              $24,900         B            No
Appendix III. Exception List                                                                  15

Legend
R = Repayment only Exception, C = Credit only Exception, B = Both Repayment and Credit Exception

                                                 Current
 Sample       Loan          Approved                             Origination    Adequate
                                             Balance/Charge
  Loan       Number        Loan Amount                           Exception      Servicing
                                              d-off Amount


   38       FOIA Ex. 2            $4,500               $4,500         C            Yes
   39       FOIA Ex. 2            $8,000               $8,000                      No
   40       FOIA Ex. 2           $32,000              $32,000         C            Yes
   41       FOIA Ex. 2           $40,000              $40,000         R            Yes
   42       FOIA Ex. 2           $20,900              $11,700         R            No
   43       FOIA Ex. 2           $10,000              $10,000         R            No
   44       FOIA Ex. 2           $30,000              $10,000                      No
   45       FOIA Ex. 2           $16,100              $16,100         C            Yes
   46       FOIA Ex. 2           $15,300              $10,000                      No
   47       FOIA Ex. 2            $8,000               $7,907         B            Yes
   48       FOIA Ex. 2           $15,500              $15,492                      No
   49       FOIA Ex. 2            $1,600               $1,509                      No
   50       FOIA Ex. 2           $30,500              $30,500         R            No
   51       FOIA Ex. 2           $29,500              $15,000         R            No
   52       FOIA Ex. 2           $39,000              $38,801         R            No
   53       FOIA Ex. 2           $42,700              $25,000                      No
   54       FOIA Ex. 2           $38,000              $38,000         C            No
   55       FOIA Ex. 2           $20,400              $20,400                      No
   56       FOIA Ex. 2           $16,600               $9,745                      No
   57       FOIA Ex. 2           $12,100              $12,100                      No
   58       FOIA Ex. 2            $6,500               $6,500         R            No
   59       FOIA Ex. 2           $10,000              $10,000         C            No
   60       FOIA Ex. 2           $81,500              $10,000                      No
   61       FOIA Ex. 2           $23,000              $23,000         R            No
   62       FOIA Ex. 2           $26,700              $10,000         C            No
   63       FOIA Ex. 2           $17,100              $17,100                      Yes
   64       FOIA Ex. 2           $16,700              $16,700         R            No
   65       FOIA Ex. 2           $18,200              $10,000                      No
   66       FOIA Ex. 2           $91,300              $10,000                      No
   67       FOIA Ex. 2           $87,200              $85,100         C            No
   68       FOIA Ex. 2           $32,000              $10,000                      No
   69       FOIA Ex. 2          $131,200               $8,974         C            No
   70       FOIA Ex. 2           $47,700              $47,975         R            Yes
   71       FOIA Ex. 2            $7,200               $7,200                      No
   72       FOIA Ex. 2           $40,000              $40,000                      No
   73       FOIA Ex. 2            $7,100               $7,100         R            Yes
   74       FOIA Ex. 2           $10,000              $10,000         B            No
Appendix III. Exception List                                                                  16

Legend
R = Repayment only Exception, C = Credit only Exception, B = Both Repayment and Credit Exception

                                                 Current
 Sample       Loan          Approved                             Origination    Adequate
                                             Balance/Charge
  Loan       Number        Loan Amount                           Exception      Servicing
                                              d-off Amount


   75       FOIA Ex. 2           $74,300              $10,170                      Yes
   76       FOIA Ex. 2           $57,600              $10,000         R            No
   77       FOIA Ex. 2           $24,600              $24,600         C            Yes
   78       FOIA Ex. 2           $32,400              $10,000         B            Yes
    79      FOIA Ex. 2            $5,100               $5,100         R            No
    80      FOIA Ex. 2           $40,000              $40,000         C            No
    81      FOIA Ex. 2           $21,100              $10,000                      No
    82      FOIA Ex. 2            $2,500               $1,978         R            Yes
    83      FOIA Ex. 2            $8,100               $8,100         B            Yes
    84      FOIA Ex. 2           $23,400              $22,249                      No
    85      FOIA Ex. 2           $13,500              $10,000         R            Yes
    86      FOIA Ex. 2           $40,000              $40,000                      No
    87      FOIA Ex. 2            $2,500               $2,186                      No
    88      FOIA Ex. 2           $13,900              $13,900                      Yes
    89      FOIA Ex. 2           $67,400               $9,963         C            No
    90      FOIA Ex. 2           $40,000              $40,000         R            No
    91      FOIA Ex. 2           $20,000              $20,000         R            No
    92      FOIA Ex. 2           $40,000              $40,000         C            No
    93      FOIA Ex. 2          $116,600             $117,075         R            Yes
    94      FOIA Ex. 2           $25,100              $18,200                      No
    95      FOIA Ex. 2            $1,800               $1,800                      No
    96      FOIA Ex. 2           $19,400              $19,400         R            No
   97       FOIA Ex. 2          $101,300               $9,408         C            No
   98       FOIA Ex. 2           $26,700              $26,700                      Yes
   99       FOIA Ex. 2           $40,000              $40,000         R            No
   100      FOIA Ex. 2           $40,000              $40,000         B            No
   101      FOIA Ex. 2           $38,200              $38,200                      No
   102      FOIA Ex. 2           $46,900              $46,900                      No
   103      FOIA Ex. 2           $24,000              $24,000         C            No
   104      FOIA Ex. 2           $17,500              $17,500         R            Yes
   105      FOIA Ex. 2           $30,200              $30,200         R            Yes
   106      FOIA Ex. 2           $35,400              $35,400         C            No
   107      FOIA Ex. 2           $92,600              $92,600                      No
   108      FOIA Ex. 2           $40,000              $10,000                      No
   109      FOIA Ex. 2            $3,600               $3,457         R            No
   110      FOIA Ex. 2           $40,000              $40,000         C            No
   111      FOIA Ex. 2           $29,500              $29,500                      No
Appendix III. Exception List                                                                  17

Legend
R = Repayment only Exception, C = Credit only Exception, B = Both Repayment and Credit Exception

                                                 Current
 Sample         Loan        Approved                             Origination     Adequate
                                             Balance/Charge
  Loan         Number      Loan Amount                           Exception       Servicing
                                              d-off Amount


   112        FOIA Ex. 2          $37,200             $37,200          C               Yes
   113        FOIA Ex. 2           $5,600              $5,563                          No
   114        FOIA Ex. 2          $10,000             $10,000                          No
   115        FOIA Ex. 2          $17,200             $10,000          R               Yes
   116        FOIA Ex. 2           $2,000              $2,000          B               No
   117        FOIA Ex. 2          $40,000             $40,000          B               No


                                          TOTALS 


         Loan Origination Exceptions                   Loan Servicing Exceptions
  Repayment Only            Credit Only
    Exceptions        38    Exceptions      23

                               Total
    Repayment &
  Credit Exceptions   13    Origination     74            Total Servicing Exceptions     93
                            Exceptions
Appendix IV. Agency Response                                                                            18




                                U.S.   SMALL BUSINESS ACMINISTRATIOH 

                                         W.. SHII<C:TOM, O.C. 2.0(1f 





       Date: 	          SEP   o9 2008
       To: 	             Debra S. Ritt
                         Assistant Inspector General for Auditing

       From: 	           Herbert L. Mitchell
                         Associate Administrator
                         for Disaster Assistance -
                                                  f'r-:
                                                  LJ- O!.A
                                                      ·
                                                                 t '1-.   (.o       J
       Subject: 	        OIG Draft Report- Early-Defaulted Gulf Coast Hurricane Disaster Loans
                         (Project No. 8302)


       We have reviewed the Draft Report regarding the Early-Defaulted Gulf Coast Hurricane
       Disaster Loans, and we thank you for the opportunity to respond. Our response indicates
       our concurrence with your recommendation and our explanation of what we have already
       done to enhance training for all loan officers and supervisory loan officers. Our
       comments are noted below:

       In response to the extraordinary and catastrophic nature of the Gulf Coast Hurricanes,
       ODA launched a Pilot Program which implemented the Expedited Home Loan Process.
       This Expedited Process based loan approval on a credit scoring model. To minimize the
       risk, we limited the dollar amount of the loans that could be processed under the
       Expedited Process. As a result, applicants with high credit scores were determined to
       have repayment ability for loans up to a specified limit. After an internal review of the
       loans processed using the Expedited Process, we determined that a cash available test was
       a necessary component for processing the disaster loans and, as such, we discontinued the
       Pilot.

       OIG RECOMMENDATION:

               We recommend that the Associate Administrator for Disaster Assistance:

               I. 	 Develop an enhanced training program for all loan officers and supervisory loan
                    officers that emphasizes how to properly evaluate applicant repayment ability and
                    creditworthiness.




                                       ,_,.. . . . . __ 0-..-·­
Appendix lV. Agency Response                                                                    19




      ODA RESPONSE:

      We agree with the recommendation and had previously taken steps to enhance training
      for all loan officers and supervisory loan officers.

      ODA has made the following enhancements:

         1. The entire loan processing staff has undergone comprehensive training to improve
            quality of the overall loan decisions. The training emphasizes how to properly
            evaluate applicant repayment ability and creditworthiness.

         2. Target training has been developed and delivered to the entire loan processing
            staff, including SLO staff, on:

                    More Comprehensive Justifications regarding Creditworthiness
                    Repayment Calculations/Analysis
                    Phase II EIDL Training
                    Collateral Training

         3. Training for new Loan Officers has been extended from 3 day classes to 5 day
            classes. This additional time will enable processing Loan Officers to have more
            detailed instruction to master the processes more quickly and efficiently.

         4. In June 2007, the Pre-Processing Decline procedure was replaced by the Pre-LV
            Review process. This process created a more comprehensive review of credit and
            repayment on marginal files prior to sending those files for loss verification.

         5. Regular Quality Assurance Reviews are performed by the QAR team to ensure
            files are processed in accordance with Agency guidelines.

      We are confident that the enhancements to training and clarification of procedures will
      have a positive impact on our processing of loan applications in future disasters. As
      stated above, ODA has implemented new training, procedures, and aggressive quality
      assurance reviews to ensure loans are approved to applicants who demonstrate repayment
      ability and adequate credit history.
